<html>
<title> - HEARING ON PROPOSALS FOR A WATER RESOURCES DEVELOPMENT ACT OF 2010, PART II</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                         PROPOSALS FOR A WATER
               RESOURCES DEVELOPMENT ACT OF 2010, PART II

=======================================================================

                               (111-102)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             April 15, 2010

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                  U.S. GOVERNMENT PRINTING OFFICE
  56-018 PDF              WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee               VACANCY
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
JOHN GARAMENDI, California
VACANCY

                                  (ii)

  
?

            Subcommittee on Water Resources and Environment

                EDDIE BERNICE JOHNSON, Texas, Chairwoman

THOMAS S. P. PERRIELLO, Virginia     JOHN BOOZMAN, Arkansas
JERRY F. COSTELLO, Illinois          DON YOUNG, Alaska
GENE TAYLOR, Mississippi             JOHN J. DUNCAN, Jr., Tennessee
BRIAN BAIRD, Washington              VERNON J. EHLERS, Michigan
TIMOTHY H. BISHOP, New York          FRANK A. LoBIONDO, New Jersey
RUSS CARNAHAN, Missouri              GARY G. MILLER, California
STEVE KAGEN, Wisconsin               HENRY E. BROWN, Jr., South 
DONNA F. EDWARDS, Maryland Vice      Carolina
Chair                                TODD RUSSELL PLATTS, Pennsylvania
SOLOMON P. ORTIZ, Texas              BILL SHUSTER, Pennsylvania
PHIL HARE, Illinois                  MARIO DIAZ-BALART, Florida
DINA TITUS, Nevada                   CONNIE MACK, Florida
HARRY TEAGUE, New Mexico             LYNN A WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   CANDICE S. MILLER, Michigan
Columbia                             ANH ``JOSEPH'' CAO, Louisiana
MICHAEL E. CAPUANO, Massachusetts    PETE OLSON, Texas
GRACE F. NAPOLITANO, California      VACANCY
MAZIE K. HIRONO, Hawaii
HARRY E. MITCHELL, Arizaon
JOHN J. HALL, New York
BOB FILNER, California
CORRINE BROWN, Florida
JOHN GARAMENIDI, California
VACANCY
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Bendick, Robert, Director, U.S. Government Relations, The Nature 
  Conservancy, Arlington, Virginia...............................     8
Brown, Theodore, Chief of Planning and Policy, United States Army 
  Corps of Engineers, Washington, D.C............................     8
Fitzgerald, Steve, PE, Chief Engineer, Harris County Flood 
  Control District, Houston, Texas...............................     8
Fordham, Kirk, Chief Executive Officer, Everglades Foundation, 
  Palmetto Bay, Florida..........................................     8
Holliday, Barry, Executive Director, Dredging Contractors Of 
  America, Washington, D.C.......................................     8
Little, Stephen, President, Crounse Corporation, Paducah, 
  Kentucky.......................................................     8

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, a Representative in Congress from the State 
  of Missouri....................................................    83
Larsen, Hon. Rick, a Represenative in Congress from the State of 
  Washington.....................................................    84
Mitchell, Hon. Harry, a Representative in Congress from the State 
  of Arizona.....................................................    85

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Bendick, Robert..................................................    86
Brown, Theodore..................................................    96
Fitzgerald, Steve................................................   100
Fordham, Kirk....................................................   107
Holliday, Barry..................................................   110
Little, Stephen..................................................   114

                       SUBMISSIONS FOR THE RECORD

Brown, Theodore, Chief of Planning and Policy, United States Army 
  Corps of Engineers, Washington, D.C.:..........................
      Response to request for information from Hon. Boozman, a 
        Representative in Congress from the State of Arkansas....    58
      Response to request for information from Hon. Garamendi, a 
        Representative in Congress from the State of California..    76
      Response to request for information from Hon. Oberstar, a 
        Representative in Congress from the State of Minnesota...    63
Johnson, Hon. Eddie Bernice, a Representative in Congress from 
  the State of Texas:............................................
      American Rivers, Andrew Fahlund, Senior Vice President for 
        Conservation, letter to the Subcommittee.................     3
      Water Resources Coalition, written testimony...............     5
Little, Stephen, President, Crounse Corporation, Paducah, 
  Kentucky:......................................................
      ``Inland Waterways Users Board 23rd Annual Report to the 
        Secretary of the Army and the United States Congress''...    18
      Response to request for information from Hon. Baird, a 
        Representative in Congress from the State of Washington..    52

                        ADDITION FOR THE RECORD

Association of State Floodplan Managers, Inc., Larry A. Larson, 
  Executive Director, written testimony..........................   130

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



 
  HEARING ON PROPOSALS FOR A WATER RESOURCES DEVELOPMENT ACT OF 2010, 
                                PART II

                              ----------                              


                        Thursday, April 15, 2010

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Eddie 
Bernice Johnson [Chairwoman of the Subcommittee] presiding.
    Ms. Johnson. The Subcommittee on Water Resources and 
Environment will come to order.
    Today, our Subcommittee continues working toward the 
creation of a Water Resources Development Act of 2010. This 
bill, last enacted in 2007, is most productive when it is 
passed every two years. Adhering to this schedule allows 
Congress to evaluate and modify Army Corps of Engineers 
projects and policy in a timely manner.
    As you know, the Committee on Transportation and 
Infrastructure began crafting a Water Resources Development Act 
last year to consider any project requests that have arisen 
since 2007. It is crucial that we maintain a regular schedule 
by passing a bill this year. Currently, the Committee is 
evaluating over 2,200 project requests from both Democratic and 
Republican Members of Congress for consideration in this year's 
bill.
    I remain committed to this Committee's tradition of 
transparency as was evident in the formulation of the Water 
Resources Development Act of 2007. I expect to uphold that 
tradition through a similar process in the formulation of a new 
water resources bill and will work to ensure public disclosure 
of all projects that are included in the upcoming bill. I look 
forward to continuing to work with the Ranking Member, Mr. 
Boozman, on this legislation.
    Historically, water resources bills have been drafted and 
debated in a cordial and bipartisan manner. These flood 
control, navigation, environmental restoration, and other water 
related projects are critically important to our constituents, 
our local economies, and the American people's lives and 
livelihoods.
    The purpose of today's hearing is to hear from various 
interest groups on their ideas for any policy considerations 
that they would like us to take into account when drafting the 
bill. I look forward to hearing the thoughts and ideas that our 
witnesses will be putting forward today.
    Additionally, let me say that this Committee's oversight 
hearings regarding implementation of the American Recovery and 
Reinvestment Act have demonstrated that the Army Corps of 
Engineers is a crucial entity that is capable of driving 
economic and environmental success in our Country. The sooner 
we advance legislation directing and guiding them into the 
future, the better.
    I now yield to the Ranking Member, Mr. Boozman, for any 
comments you have.
    Mr. Boozman. Thank you, Madam Chair. I think, in the 
interest of time, I will have a statement that we are going to 
put into the record, but I really appreciate the Chair having 
this very important Committee hearing. The infrastructure of 
our Nation's water projects is so important, and this is 
something that needs to be discussed and we need to figure out 
how we can move forward and address the challenges that we 
have, not only in the new infrastructure that we need to 
create, but also in the big picture of all of this, maintaining 
what we have.
    So, again, like I said, I look forward to the testimony 
today and getting your input. We appreciate your being here, 
and hopefully we can have a good discussion today and really 
figure out how we can go forward and, again, continue to work 
on improving the Nation's waterways and all of the projects 
that are involved as we discuss the WRDA bill.
    So thank you very much, Madam Chair.
    Ms. Johnson. Thank you very much.
    Before we go to opening statements and to the witnesses, I 
ask unanimous consent that the statements from American Rivers 
and Water Resources Coalition be entered into the record. 
Without objection, so ordered.
    [The referenced information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Ms. Johnson. Congressman Brown?
    Mr. Brown of South Carolina. Thank you, Madam Chair and 
Ranking Member Boozman, for holding this hearing today. I 
applaud your leadership in moving forward with the efforts to 
get Congress back on track and regularly passing a WRDA bill. I 
look forward to working with my colleagues as we develop this 
critical piece of legislation.
    Unfortunately, most of the projects authorized in 2007 WRDA 
remain unfunded due to lack of appropriations. I do not fault 
my colleagues on the Appropriations Committee; I know they have 
done their best to allocate any available funding towards water 
resource projects. However, it is hard not to blame those who 
submit budgets that cut the core construction account by $341 
million, or almost 17 percent, and the investigative account by 
$56 million, or 35 percent.
    I applaud the Administration for making a commitment to 
fiscal responsibility. For far too long both Republicans and 
Democrats have forsaken our fiscal duties. However, it appears 
that in the Administration's effort to rediscover fiscal order, 
we have lost our priorities. Just as we cannot leave a monetary 
debt to our children, we also cannot leave an infrastructure 
debt to future generations.
    I hope that as we write the next WRDA bill, the 
Administration does not continue this adversarial relationship 
with the Corps of Engineers and, instead, collaborates with us 
on a WRDA bill that balances fiscal restraints and funding for 
projects that provide an economic benefit.
    I also hope to collaborate with the Administration on the 
update of the principles and guidelines. I am concerned that 
the Administration's draft principles forces the Corps to 
recommend a nonstructural alternative, regardless if the 
nonstructural option actually accomplishes the goals of the 
project. How does the Administration plan to rectify this 
nonstructural bias with the need to conduct important projects 
such as harbor deepening? This is important to my district 
because South Carolina is dependent upon the Port of 
Charleston. This resource is responsible for $44.8 billion in 
total economic output and over 260,000 jobs across our State.
    A key component in the Port of Charleston's success is its 
harbor depth. However, even its 45-foot depth is only able to 
accommodate deep draft ships under the most optimal conditions. 
This will have a negative impact on South Carolina's economy, 
as these larger ships are set to dominate world trade routes.
    I hope that Mr. Brown from the Corps of Engineers will 
explain to the Committee how the update to the principles and 
guidelines will not encumber projects such as the Charleston 
Harbor upgrade during his testimony.
    Thank you, Madam Chair. I yield back.
    Ms. Johnson. Thank you very much.
    We will now move to our witnesses. We have the following 
witnesses present today:
    Mr. Theodore Brown, the Chief of Planning and Policy of the 
United States Army Corps of Engineers in Washington; Mr. Steve 
Fitzgerald, the Chief Engineer of Harris County Flood Control, 
Houston, Texas; Mr. Robert Bendick, Director of U.S. Government 
Relations of The Nature Conservancy, Arlington, Virginia; Mr. 
Barry Holliday, Executive Director of the Dredging Contractors 
of America, in Washington; Mr. Kirk Fordham, Chief Executive 
Officer of the Everglades Foundation, Palmetto Bay, Florida; 
Mr. Stephen Little, President of Crounse Corporation, Paducah, 
Kentucky.
    I will now recognize you in the order that I called your 
names, and we will start with Mr. Theodore Brown.

  TESTIMONY OF THEODORE BROWN, CHIEF OF PLANNING AND POLICY, 
UNITED STATES ARMY CORPS OF ENGINEERS, WASHINGTON, D.C.; STEVE 
  FITZGERALD, PE, CHIEF ENGINEER, HARRIS COUNTY FLOOD CONTROL 
   DISTRICT, HOUSTON, TEXAS; ROBERT BENDICK, DIRECTOR, U.S. 
   GOVERNMENT RELATIONS, THE NATURE CONSERVANCY, ARLINGTON, 
    VIRGINIA; BARRY HOLLIDAY, EXECUTIVE DIRECTOR, DREDGING 
 CONTRACTORS OF AMERICA, WASHINGTON, D.C.; KIRK FORDHAM, CHIEF 
    EXECUTIVE OFFICER, EVERGLADES FOUNDATION, PALMETTO BAY, 
 FLORIDA; AND STEPHEN LITTLE, PRESIDENT, CROUNSE CORPORATION, 
                       PADUCAH, KENTUCKY

    Mr. Brown. Madam Chair, distinguished Members of the 
Committee, I am Theodore Brown, Chief of Planning and Policy 
Division, and I am honored to be testifying before you today. 
My testimony will briefly describe three proposed projects that 
have received favorable completion of Executive Branch review 
since the enactment of WRDA 2007. These proposals include 
Topeka Flood Risk Management Project, the Mississippi Coastal 
Improvement Program, and the West Onslow Beach Hurricane and 
Storm Damage Risk Reduction Project, all falling within the 
major mission areas of the U.S. Army Corps of Engineers, which 
are commercial navigation, flood and storm damage risk 
reduction, and aquatic ecosystem restoration, and all will 
provide net benefits to the Nation.
    Also, I will address two other proposed projects that have 
reports to the Chief of Engineers but are still under review.
    First, my testimony covers the Mississippi River Gulf 
Outlet Deep Draft Deauthorization Project that has favorably 
been completed Executive Branch review and has been 
implemented. In January 2008, the Chief of Engineers signed a 
report on deauthorization of the Mississippi River Gulf Outlet, 
known as MRGO, deep draft navigation in Louisiana.
    The report is a final response to the authority provided in 
the Emergency Supplemental Appropriations Act for Defense, for 
the Global War on Terror, and Hurricane Recovery 2006 and 
Section 4304 of the U.S. Troop Readiness, Veterans' Care, 
Katrina Recovery, and Iraq Accountability Appropriations Act 
2007. Public Law 109-234 authorized a comprehensive plan at 
full Federal expense to deauthorize deep draft navigation on 
the MRGO extending from the Gulf of Mexico to the Gulf 
Intracoastal Waterway. Public Law 110-28 directed accelerated 
completion of the final report of the Chief of Engineers. 
Construction to close the MRGO was completed in July 2009.
    Topeka Flood Risk Management Project. In August 2009, the 
Chief of Engineers signed a report on flood risk management 
improvements on the Kansas River in the vicinity of Topeka, 
Kansas. The report is in response to the authority contained 
under Section 216 of the Flood Control Act of 1970.
    The report recommends modifications to four existing levee 
units, as follows: the South Topeka Unit, a control berm and 
modifications to the Kansas Avenue Pump Station and three 
manholes, and replacement of 2,000 linear feet of floodwall; 
for the Oakland Unit, a control berm, a stability berm, and 
pump station modifications; North Topeka Unit, a control berm, 
a series of pump relief wells, and the removal of an unused 
pump station; for the Waterworks Unit, a stability berm.
    The levee improvements will provide greater than 90 percent 
reliability against damages from the base flood, which has a 1 
percent chance of occurrence in any year, formerly known as the 
100-year flood. Based on October 2008 price levels, the 
estimated first cost of the project is about $21.2 million and 
will be shared 65 percent Federal and 35 percent non-Federal. 
At a 4.625 percent discount rate, the benefit-cost ratio is 
13.2 to 1.
    Mississippi Coastal Improvements Program. In September 
2009, the Chief of Engineers signed a report on comprehensive 
water resources improvements associated with hurricane and 
storm damage reduction, flood damage reduction, and ecosystem 
restoration in the three coastal counties of Mississippi. The 
report is in response to the authority under the Department of 
Defense Appropriation Act.
    The comprehensive Mississippi Coastal Improvements Program, 
known as MsCIP, is a systemwide approach linking structural and 
nonstructural risk reduction appropriates and environmental 
restoration features. To address the most critical needs, the 
report recommends 12 near-term elements which would restore 
over 3,000 acres of coastal forest and wetlands, restore about 
30 miles of beach and dunes, and flood proof or acquire about 
2,000 tracks within the 100-year floodplain. Based on October 
2008 price levels, the estimated first cost of the project is 
just over $1 billion, to be cost shared 65 percent Federal and 
35 percent non-Federal. However, in Public Law 111-32, the 
Supplemental Appropriations Act for 2009, Congress appropriated 
all the funds for the barrier island element in the amount of 
$439 million at Federal expense.
    West Onslow Beach and New River Inlet, Topsail Beach. In 
September 2009, the Chief of Engineers signed a report on 
hurricane and storm damage reduction along a five mile reach of 
Atlantic Ocean shoreline at Topsail Beach, North Carolina. This 
report is a final response to the Energy and Water Development 
Act of Fiscal Year 2001, which included funds for a General 
Reevaluation Report for West Onslow Beach and New River Inlet, 
Topsail Beach, Shore Protection Project and the remaining 
shoreline at Topsail Beach.
    The Report recommends a locally preferred 26,200-foot long 
dune and a berm system including a dune three feet lower than 
the National Economic Development Plan and extends 400 feet 
southwest to include additional properties that are vulnerable 
to coastal storm damage. The Assistant Secretary of the Army 
for Civil Works approved a policy exception in May 2008 
allowing the Corps to recommend the locally preferred project. 
The 400-foot extension costs an additional $320,000 and would 
be funded entirely by the non-Federal sponsor.
    Based upon October 2008 price levels, the initial cost of 
the recommended project is $42.6 million, to be cost shared 65 
percent Federal and 35 percent non-Federal. It also includes 50 
years of periodic nourishment to be shared equally at $113.9 
million based on October 2008 price levels. At a 4.625 percent 
discount rate, the benefit-cost ratio was 3 to 1.
    In accordance with Executive Order 12322, OMB has found 
these projects consistent with policy and programs of the 
President.
    There are two other proposed projects with Chief reports 
that are still under review: the Mid-Chesapeake Bay Island 
Ecosystem Restoration Project, signed in August 2009, and the 
C-43 West Basin Storage Reservoir Project for the Everglades, 
signed in March 2010.
    This concludes my statement. Again, I appreciate the 
opportunity to testify today and would be pleased to answer any 
questions you might have.
    Ms. Johnson. Thank you very much.
    One of the things I failed to say earlier is that all of 
your testimony will be placed in the record, and if you could 
keep your remarks to five minutes, we would appreciate it.
    Thank you. Mr. Fitzgerald.
    Mr. Fitzgerald. Thank you, Madam Chairwoman and Committee 
Members. On behalf of the National Association of Flood and 
Stormwater Management Agencies, or NAFSMA, we want to thank you 
for your leadership and efforts to move a Water Resources 
Development Act forward this year. Not only does this necessary 
legislation provide an opportunity to review and shape the 
policies and programs of the Corps of Engineers, it is needed 
to strengthen the partnerships necessary to achieve the flood 
damage reduction goals of this Nation.
    Our members are on the front line every day reducing loss 
of life and property damage from floods, improving the quality 
of the Nation's surface waters, and helping guide the design 
and construction of low flood risk and affordable communities. 
Many of our members are non-Federal partners on flood damage 
reduction and ecosystem restoration projects with the Corps of 
Engineers.
    During these tough economic times, it is important that we 
all find ways to reduce costs, expedite studies, and minimize 
review and permitting so we can build and maintain projects 
that reduce loss of life and property from floods, while at the 
same time using public dollars to put people to work.
    Now I am going to present our recommendations.
    Many non-Federal sponsors and their congressional 
delegations held back new projects or amendments to existing 
projects from consideration in WRDA 2007 at the request of 
Committee leadership and staff in an effort to move that bill 
forward. These projects now need to be considered as they are 
necessary to protect lives and critical infrastructure and 
reduce flood damages.
    Next, we have five suggestions related to the 
recommendations of the National Committee on Levee Safety.
    First, provide the necessary authorizing language to expand 
and complete the national levee inventory to include non-
Federal, as well as Federal, levees.
    Second, authorize the Corps of Engineers, when requested, 
to carry out levee certifications for federally partnered 
projects. We believe the Corps has the expertise and a shared 
responsibility to actively participate in FEMA's certification 
process with non-Federal partners.
    Third, establish a national levee rehabilitation, 
improvement and flood mitigation program to address critical 
levee situations and make funding available on a cost-shared 
basis to owners and operators of levee systems.
    Fourth, explore expanding incentives for flood levee 
repairs or strengthening of levees by non-Federal partners. In 
some instances the non-Federal partner needs the ability to 
start work prior to the next flood threat and have the 
opportunity to work with the Corps and Congress to receive 
needed and appropriate credits or reimbursements for the 
Federal share.
    Fifth, develop and implement measures to more closely 
harmonize levee operation and maintenance activities with 
environmental protection requirements. Non-Federal partners 
wants to maintain the integrity and strength of existing levees 
without significantly impacting the environment. There are 
situations where inconsistencies between Federal regulators and 
environmental agencies in the permitting and guidance of levee 
maintenance are resulting in unpredictable requirements and 
delays.
    Our specific recommendations for WRDA are: require the 
Corps to report to Congress within 180 days of passage on the 
impediments and suggested changes required to improve 
environmental permitting for operation and maintenance of 
federally partnered flood damage reduction projects, and 
authorize the updating of existing operation and maintenance 
manuals for federally partnered projects to include Section 404 
permits, if necessary, or otherwise allow local sponsors to 
perform the required maintenance without the need to obtain 
Federal permits and without requiring costly mitigation 
measures.
    Our remaining recommendations apply to all flood damage 
reduction projects, not just levees.
    First, make Section 214 of WRDA 2000 permanent, which 
allows non-Federal public entities to contribute funds toward 
additional permit staff for the Corps. Permit process times are 
reduced not only for the funding entity, but for all other 
applicants as well.
    Next, provide sound floodplain management incentives to 
non-Federal sponsors for federally partnered flood damage 
reduction projects. For example, where a community is carrying 
out sound floodplain management activities, as reflected in 
FEMA's Community Rating System or similar system, you could 
reduce the 35 percent local cost share accordingly.
    And, finally, NAFSMA requests the Committee to support any 
and all means to expedite the planning process, including 
authorization changes, if needed. It will take a considerable 
and collaborative effort from local sponsors, the Corps, and 
Congress to make any significant and worthwhile changes.
    In closing, NAFSMA urges Congress to enact WRDA 2010 to 
move needed water resources policies, programs and projects 
forward for the benefit of the communities we serve. Thank you.
    Ms. Johnson. Thank you very much.
    Mr. Bendick.
    Mr. Bendick. Madam Chairwoman and Members of the 
Subcommittee, thank you for the opportunity to testify on 
proposals for the Water Resources Development Act of 2010, and 
particularly the need to protect our Nation's rivers, lakes, 
and coastal areas, and the benefits they provide to people.
    I am Bob Bendick, Director of U.S. Government Relations at 
The Nature Conservancy. Prior to coming to my current job in 
our Arlington office, I worked on water resources issues for 
State government and the Conservancy's field programs for more 
than 30 years.
    A 2009 bipartisan public opinion survey found that 78 
percent of American boaters are seriously concerned about the 
health of our Nation's rivers and lakes. The Conservancy shares 
their concerns and we offer here five specific recommendations 
that will help improve our waters and benefit communities 
across the Country.
    As the Conservancy has increased its engagement in a 
variety of restoration projects, the U.S. Army Corps of 
Engineers has become an important and valued conservation 
partner. By number of projects, the Conservancy is now the 
Corps' largest non-Federal sponsor of ecosystem restoration 
projects.
    The Conservancy's objective in this is to help protect and 
restore the key physical and ecological processes that sustain 
freshwater systems, including the flow of water through these 
systems, the movement of nutrients and sediments within these 
systems, and the function of floodplains and river corridors 
that maintain these processes. We believe that by focusing 
public management on returning these processes to within the 
range of natural variability, it will help ensure the long-term 
viability of the Nation's freshwater systems to meet the needs 
of people and nature.
    By definition, protection and restoration of these 
processes requires a system-scale, watershed-scale approach to 
provide the framework for short-and long-term decision-making.
    With this as background, here are our five priorities for 
building upon the important ongoing restoration work of the 
Corps:
    First, support the request of a new authority to establish 
a national sustainable rivers program within the Corps to 
implement science-based environmental flow requirements and the 
protection and restoration through easements and acquisition of 
floodplains downstream from Corps dams. This program, now a 
pilot partnership with the Conservancy and the Corps in eight 
watersheds, can improve community flood protection, restore 
environmental health, including water quality and fish and 
wildlife habitat, and enhance resiliency to climate change. Of 
course, new SRP projects need not be with the Conservancy; 
there could be many, many partners. The initial projects have 
simply been moved forward to demonstrate the viability of this 
concept.
    Second, authorize regional restoration authorities that 
allow the Corps to engage stakeholders across watersheds, river 
basins, and coastal regions to set priorities and implement 
projects that will result in the most ecological return on 
Federal dollars invested. Specifically, we ask that you support 
requests to authorize the North Atlantic Division Marine and 
Coastal Program and reauthorization of the Ohio River Ecosystem 
Restoration Program. Particularly in this area of climate 
change and sea level rise, isolated project-by-project 
decisions are not likely to produce the best long-term results.
    Third, as you review WRDA projects overall, identifying and 
approving projects that serve multiple needs across whole 
ecosystems is an effective way to meet water resource goals. 
Examples of this approach already authorized include in the 
Mississippi Basin the Navigation and Ecosystem Sustainability 
Program, or NESP, in the upper Mississippi, and the Hamilton 
City Combined Flood Risk Reduction and Ecosystem Restoration 
Project in California.
    Fourth, support changes in the continuing authority 
programs to further emphasize those projects that result in the 
greatest ecological return on the dollar invested by setting 
clear science-based criteria for allocating program funds. In 
practice, this means concentrating limited funding on the best 
Section 1135 and 206 projects, getting them done in a timely 
way, and deferring action entirely on other projects.
    And, finally, support the request to amend Section 234 of 
the Water Resources Development Act of 1996 to enable the Corps 
to partner with and accept funds from the non-Corps elements of 
the Department of Defense and to partner with nongovernmental 
organizations outside the U.S. This authority enables the Corps 
to participate with Federal or international organizations and 
foreign governments to address problems of national 
significance related to water resources in other countries. 
Such actions can be an important element of national security 
and international stability. The amendment also ensures that 
any use of this authority would require the approval of the 
Secretary of State.
    Thank you for the opportunity to testify today on behalf of 
the Conservancy.
    Ms. Johnson. Thank you very much.
    Mr. Holliday.
    Mr. Holliday. Madam Chairman, Ranking Member Boozman, and 
Subcommittee Members, I am Barry Holliday, Executive Director 
of the Dredging Contractors of America. Thank you for providing 
me this opportunity to testify today.
    I would first like to discuss the positive results from the 
American Recovery and Reinvestment Act work accomplished by the 
U.S. Army Corps of Engineers and the dredging industry. I would 
like to take this opportunity to acknowledge the outstanding 
cooperation and leadership by the Corps of Engineers in 
managing the execution of the additional dredging work funded 
by the ARRA. As a result of preliminary regional discussions 
with the Corps, the dredging industry was able to effectively 
ensure equipment and resources were available to get the job 
done. In my written testimony, I have included a full listing 
of all the new equipment and the new dredges that were acquired 
as a result of the ARRA.
    The Corps and the dredging industry have effectively 
demonstrated that they can execute on rather short notice. 
During fiscal year 2009, the dredging industry accomplished an 
additional $117 million of dredging work as a result of ARRA 
and an additional $212 million as a result of hurricane 
supplemental and other emergency dredging work in the Gulf of 
Mexico. But this additional work is only a short-term band-aid 
against larger long-term dredging needs.
    There continues to be a major shortfall of funds 
appropriated to adequately maintain our ports and harbors. For 
this purpose, I speak not only for the Dredging Contractors of 
America, but also as Chairman of the Harbor Maintenance Trust 
Fund Fairness Coalition. In that capacity, I would like to 
address the current situation regarding the Harbor Maintenance 
Trust Fund and our Nation's ports and harbors.
    The Coalition many of you also know as RAMP, Realize 
America's Maritime Promise, formed in March 2008 and represents 
a very broad spectrum of maritime interests. In 2009, the 
harbor maintenance tax collected approximately $1.3 billion 
from shippers for the purpose of funding dredging projects. 
However, only $808 million of the dredging and related 
maintenance costs were reimbursed from the fund through regular 
appropriations. At this funding level, most ports and harbors 
were unable to be dredged to their authorized project 
dimensions.
    Our ports and harbors are gateways to domestic and 
international trade. Connecting the United States to the world, 
U.S. ports and harbors handle more than 2.5 billion tons of 
domestic and international trade annually and are responsible 
for moving more than 99 percent of the Nation's overseas cargo. 
That volume is projected to double within the next 15 years. 
With the expansion of the Panama Canal in 2015, many of our 
ports should realize substantial volume growth if these ships 
can get into our harbors.
    Without a navigation channel dredged to its authorized 
width and depth, a port's economic viability is threatened. The 
United States will lose existing business and potential new 
business to foreign ports, and history has shown that, once 
lost, it is rarely regained.
    During this time of economic stress on our Nation, we 
cannot afford to threaten these water highways that are so 
important to our Nation's commerce. A fully funded dredging 
program would keep our Nation's maritime commerce flowing and 
ensure that the Corps could properly plan and manage dredge 
material for potential beneficial uses and environmental 
restoration applications.
    Similar problems with Highway Trust Fund and Airports and 
Airways Trust Fund were addressed by past Congresses by 
enacting legislation to more closely tie trust fund 
expenditures and revenues through a guarantee and a point of 
order. The RAMP Coalition is extremely pleased that Congressman 
Charles Boustany and Congressman Bart Stupak and Congressman 
Laura Richardson have introduced H.R. 4844 to do the same for 
the Harbor Maintenance Trust Fund. Since this bill addresses 
program-wide funding, not specific projects, it is not 
considered earmark legislation. Also, as with the AIR-21 
provision, after which it is modeled, H.R. 4844 should not 
score as violating pay-go rules.
    All of the members of the Harbor Maintenance Trust Fund 
Fairness Coalition respectfully request that this Subcommittee 
use this unique opportunity to enact legislation that is needed 
now so that future port navigation channel capacity affecting 
trade, American jobs, and our national defense, will not be 
compromised. We urge you to pass a Water Resources Development 
Act this year, with the H.R. 4844 language included, and 
restore the trust to the Harbor Maintenance Trust Fund.
    Thank you very much.
    Ms. Johnson. Thank you very much.
    Mr. Fordham.
    Mr. Fordham. Thank you. Chairman and Members of the 
Committee, thanks again for having us here today to testify on 
this important bill. For those of you who aren't familiar with 
The Everglades Foundation, we are a collection of individuals, 
families, businesses, all folks that depend on the Everglades 
for our livelihood and just who enjoy the natural resources 
that make it such a spectacular place.
    Needless to say, all of us here at this table are counting 
on speedy passage of WRDA this year. But I want to speak a 
little bit today about the Florida Everglades, an ecological 
wonder that is found nowhere else in the world.
    For over two decades, this interconnected series of parks 
and wildlife refuges has been limping along in critical 
condition. As Members of this Committee know well, the 
Everglades have been diked, drained, divvied up, developed, and 
degraded through years of poorly conceived government and 
private sector schemes. We have lost over half of the original 
Everglades, and scientists estimate that over 90 percent of the 
wading birds are now gone. The few remaining Florida panthers, 
Southern Bald Eagles, and other great American wildlife species 
are struggling to survive.
    But there is actually good news to report today. We have 
actually turned a corner. Over the last two years, we have 
witnessed more progress on Everglades restoration than we have 
seen since the passage of the bipartisan Comprehensive 
Everglades Restoration Plan back in 2000. Thanks to the work of 
this Committee, a bipartisan support in Congress, and several 
major restoration projects are now underway.
    For instance, the first phase of bridging along Tamiami 
Trail, that is, a bridge that will raise that road the highway 
that acts as an artificial dam, is under construction. It will 
allow the flow of fresh water to move into the Everglades, 
which is now parched and struggling to survive.
    In Southwest Florida, an astounding 55,000 acres of 
wetlands and wildlife habitat are currently being restored in 
an area known as the Picayune Strand.
    The Kissimmee River restoration project, at the headwaters 
of the Everglades, is nearly a third complete and has been a 
tremendous success story. Wetlands are rebounding, wildlife is 
returning, and fishing, boating, and recreational opportunities 
are multiplying in the restored Kissimmee River Basin.
    With this newfound momentum, there has never been a better 
time to continue advancing the world's largest ecosystem 
restoration initiative. But this isn't just an initiative about 
restoring the environment. The Everglades are a powerful 
economic engine that sustain one of our most populous States 
and provide economic benefits throughout the Nation.
    Most people don't realize this, but over 7 million 
Americans living in the region directly depend on the 
Everglades for their supply of fresh drinking water. Without 
the Everglades, one in three Floridians would have to look 
elsewhere for their water supply.
    At the same time, some of our most critical industries have 
a major presence in Florida and depend directly on the 
Everglades for their survival. Think about our tourism, our 
boat manufacturing, dockage and marine services industries, all 
providing tens of thousands of jobs to our region. A $5 billion 
commercial and recreational fishing industry supplies Americans 
with an abundant food supply and really some of the best 
angling opportunities in America. But all of these businesses 
are threatened as fishing populations of grouper, snapper, 
stone crab, bonefish, and tarpon have all continued to plummet.
    Today I am asking you, on behalf of a wide range of 
national business conservation, civic, sporting, and fishing 
groups to authorize four key projects, all part of the 
Comprehensive Everglades Restoration Plan.
    First is the C-111 Canal project. It will help recover 
portions of Florida Bay and Everglades National Park, both of 
which have been starved of their normal supply of fresh water. 
If you have ever visited the Florida Keys, you know all the 
folks that live along those communities depend on the water for 
their livelihood and their survival, as the water flows from 
the southern peninsula into the bay.
    Second, we urge the Committee to authorize the Biscayne Bay 
Coastal Wetlands project, to save a great national park that 
sits alongside one of our largest metropolitan areas, the City 
of Miami.
    Another key Everglades restoration, the C-43 West Basin 
Storage Reservoir, is a project geared toward the protection of 
the tremendous ecological and economic resources of the 
Caloosahatchee River and all the communities along the Gulf of 
Mexico.
    Finally, the successful Kissimmee River Restoration project 
I mentioned earlier is in need of an increase in its authorized 
level of funding since its initial approval in 1992.
    By authorizing these projects, Congress has the opportunity 
to build on these early successes and demonstrate that we can 
in fact restore ecosystems of high economic value to the 
Nation.
    Folks, the Everglades encompass some of America's most 
treasured special places. Just as we value great national 
treasures like Yosemite, the Grand Canyon, and the Rocky 
Mountains, Americans recognize the Everglades as a place worth 
protecting.
    Mr. Chairman and Members of the Committee, I thank you for 
this opportunity to speak to you today.
    Ms. Johnson. Thank you very much.
    Our last witness, Mr. Stephen Little.
    Mr. Little. Thank you, Madam Chairwoman, for providing me 
with this opportunity to testify concerning the Water Resources 
Development Act of 2010. We are encouraged by the Committee's 
efforts to begin to develop this year's bill. Water Resource 
Development Acts, or WRDAs, as many of us have come to refer to 
them, are very important to both the economy and the 
environment of the Nation, a reality that is even more 
important today as we struggle to emerge from the worst 
economic downturn since the Great Depression.
    I am Stephen Little, President and CEO of Crounse 
Corporation. Crounse is a leader in the river transportation 
industry. In addition to my position with Crounse, I also serve 
as a member of the Board of Directors and on the Board's 
Executive Committee of Waterways Council, the national public 
policy organization advocating in support of a modern and well 
maintained national system of ports and inland waterways.
    Madam Chair, I also have the distinct honor and privilege 
of being the current Chairman of the Inland Waterways Users 
Board. The Users Board is a Federal advisory committee 
established by Congress in Section 203 of the Water Resources 
Development Act of 1986, one of this Committee's many 
significant legislative achievements.
    On behalf of Crounse Corporation, I am pleased to appear 
before the Subcommittee this morning to testify in strong 
support of the recommendations developed by the Inland Marine 
Transportation System's Capital Investment Strategy Team, or, 
as we refer to it, the CIS Team. These recommendations have 
been approved unanimously by the Users Board. They also have 
the broad and growing support of the waterways industry, as 
evidenced by unanimous endorsement by the Board of Directors of 
Waterways Council, the American Waterways Operators, and 
National Waterways Conference, and by similar expressions of 
support from more than 150 other associations and companies 
throughout the Nation.
    At this time, Madam Chairwoman, I would ask that the entire 
IMTS report, as approved by the Users Board just two days ago, 
be included in the record of this hearing.
    Mr. Baird. Madam Chair, if I may.
    What is the length of that, Mr. Little?
    Mr. Little. It is about--the report itself is about 75 
pages.
    Mr. Baird. I actually am well familiar with the report; I 
think it is a great piece of work. I just don't want to have 
the printing office have to retype that, with no disrespect to 
the report.
    Mr. Little. If I may, we also have an Executive Summary. I 
don't have it with me. It is obviously shorter, if that pleases 
the Committee.
    Mr. Baird. I would be more comfortable with that. I know 
the report. I was going to ask you about it, but there is sort 
of a limit for UC requests on length of reports to get entered 
into the record.
    Ms. Johnson. Without objection, so ordered.
    [The referenced information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Little. Okay. Thank you.
    Resuming my statement, for roughly a year and a half, 
approximately 50 key Corps of Engineers and industry 
representatives have worked diligently to develop together a 
comprehensive solution to the challenges facing our inland 
waterways system, a solution that improves the project delivery 
system, that dimesnsions the most critical physical needs of 
the system, and figures out what it will cost to address those 
needs and addresses how to pay for it.
    The CIS Team proposes a $7.6 billion 20-year inland 
waterway Capital Investment Program. The Program would entail 
an average annual investment of about $380 million, $320 
million of which would go for new construction, $60 million 
would go for major rehabilitation projects. The CIS Team's 
proposal would preserve the existing 50 percent industry/50 
percent Federal cost-sharing formula for new lock construction 
and major rehabilitation projects costing $100 million or more.
    The plan would adjust the current model to provide 100 
percent Federal funding for dam construction and major rehab 
projects and for smaller lock rehab projects.
    The proposal also includes a cost-sharing cap to provide 
some protection to the industry from unreasonable cost 
escalation and project delays.
    After reviewing alternative options for generating 
additional revenue for the Trust Fund, the CIS Team proposes a 
30 percent to 45 percent increase, which is about 6 cents to 9 
cents per gallon, in the current diesel fuel tax, to a level 
between 26 cents and 29 cents a gallon.
    A fundamental assumption of the Team's recommendations, in 
fact, the Team's underlying premise, is that the Federal 
Government will provide funds envisioned in the plan in an 
efficient manner.
    In conclusion, Madam Chair, the Corps has conservatively 
estimated that this plan is expected to avoid cost growth 
between $600 million and $2.1 billion over the next 20 years, 
and there will be other economic benefits as well, in addition 
to the environmental and societal benefits to the Nation.
    Finally, and lastly, Crounse Corporation and the Users 
Board urges the Committee to include into the next WRDA bill 
the provisions that are necessary to fully implement this 
comprehensive inland waterway system modernization plan, and I 
thank you for this opportunity to testify today.
    Ms. Johnson. Thank you very much.
    Now we will go right to questions and I will begin the 
first round.
    Mr. Holliday mentioned that funds from the American 
Reinvestment and Recovery Act advanced important dredging 
projects, and I would like to know if there were other 
beneficial advances in the projects that any of you might be 
aware of, such as the Everglades or any waterways.
    Mr. Fordham. I could tell you that over the last year and a 
half we have seen significant infusion of dollars from the 
American Recovery Act and regular appropriations in Everglades 
restoration. Frankly, you have put over 600 folks back to work 
in Florida due to those restoration funds. Frankly, the 
Recovery Act has jump-started this project and it has built a 
new sense of momentum in Florida, and I think we are now seeing 
a renewed focus in the State legislature because of that.
    Mr. Fitzgerald. Madam Chairwoman, there is also some of our 
members, local sponsors, doing flood damage reduction projects 
with the Corps, there was some ARRA money that was designated 
for flood damage reduction projects, and they were very 
important to promoting reduced flood damages in the United 
States, and that was very much appreciated by our members.
    Ms. Johnson. Thank you very much.
    Mr. Fordham, will construction of the C-43 project have 
immediate benefits to the Everglades and the people surrounding 
it?
    Mr. Fordham. Absolutely, Madam Chairwoman. We expect that 
when that project is online, that it will help reduce the flow 
of polluted water from Lake Okeechobee into the Caloosahatchee 
River Basin. As you know, those communities on the west coast 
of Florida--in Fort Meyers, Bonita Springs, Naples--all of 
their economies suffer when those freshwater releases basically 
blow out their estuaries, they produce fish kills, algal 
blooms, red tide on our beaches. If you talk to our tourism 
authorities down there, back in 2004, 2005, when we saw these 
very significant and damaging releases, it had a profoundly 
negative impact on their economies. So this project is really 
critical to saving not just the ecosystem, but also protecting 
some vital industries on the west coast.
    Ms. Johnson. Thank you.
    Now I will call on Mr. Boozman for his questions.
    Mr. Boozman. Thank you, Madam Chair. With your permission, 
I would like to go to Mr. Brown first, and then we will come 
back to me.
    Ms. Johnson. Mr. Brown is recognized.
    Mr. Brown of South Carolina. Thank you, Madam Chair, and 
thank you, Mr. Boozman, for yielding.
    This has been a good discussion. I represent the coast of 
South Carolina, and we have a lot of needs down there as far as 
the harbor deepening the Intracoastal Waterway, keeping it from 
filling in, and I am glad that one of you alluded to the fact 
that the shipping channels will change when the Panama Canal is 
going to be deepened and widened, so those ships that stop over 
in Los Angeles will be coming to Charleston. But every year we 
have to compete to get funding to keep that harbor either from 
silting in or from deepening in.
    Mr. Holliday, I was interested in hearing your testimony 
about the reserve fund that is created by the shipping 
community yourself. I noticed that you said that there was a 
deficit last year--not a deficit, but a surplus, I guess, 
created by some half a billion dollars, and I guess just last 
year. I would be interested to know how much has accumulated in 
that fund through the years.
    Mr. Brown, do you have an answer to that? Because it seems 
like to me it is a user fee that is not being spent.
    Mr. Brown. According to the information I have right now, 
Congressman, at the end of the last fiscal year, fiscal year 
2009, the balance in the Harbor Maintenance Trust Fund was $5.1 
billion.
    Mr. Brown of South Carolina. Every year we have to extend 
our credibility, I guess. A lot of the folks around the Nation 
believe that earmarks are some kind of bad word, so we have to 
appeal to the appropriators to try to get funding to deepen the 
harbor in Charleston, and also in Georgetown, which is not as 
active a harbor, but the authorized depth is 27 feet, and we 
have a depth of about 22 feet.
    And we have industry that would like to come in and use 
that harbor, but they can't get in because of the depth of the 
harbor. So the Corps tells us, well, if you don't have the 
tonnage coming in, then you can't justify spending the funds. 
But apparently there are funds available.
    Mr. Brown, how does the Corps go about allocating those 
funds? Why would we have such a deep reserve with such a great 
amount of need out there?
    Mr. Brown. Well, obviously, there are Administration 
priorities that get laid out. The specifics in terms of the 
Harbor Maintenance Trust Fund, I probably would have to get 
back to you in terms of the details, sir, just so we have the 
record clear. I would be happy to do that.
    Mr. Brown of South Carolina. Okay. Because there must be 
some reason for the Corps to accumulate those funds. Somebody, 
maybe OMB or whoever it is, is reserving those funds for some 
other purpose, and in South Carolina, we have probably over 
200,000 jobs depending on that port, and if we are not going to 
be ready--in fact, we had to put an authorization request in.
    I know our conference Republicans said we are not going to 
request any earmarks, and we had to put in a $2.5 million 
request to do a study to deepen that harbor from 45 feet to 50 
feet that would be able to accommodate those larger container 
ships when the Panama Canal does come open, even the ones that 
come in now from the other ports. But we certainly would 
appreciate any consideration for that.
    Also, the Intracoastal Waterway, I know Mr. Little alluded 
to that, and that is a big issue for us. I noted some of the 
stimulus funds were used to deepen the Intracoastal Waterway, 
so we will go on record and state we appreciate those funds, 
because we had some parts of that Intracoastal Waterway that 
were probably 4 feet deep, and it was authorized at 12 feet.
    I know there are some user fees even used in the 
Intracoastal Waterway. What happens to those user fees, Mr. 
Little, do you have any idea on that?
    Mr. Little. Are we referring to the fuel tax the inland 
waterways pay?
    Mr. Brown of South Carolina. Right.
    Mr. Little. Yes, sir. The inland waterways industry pays a 
fuel tax of 20 cents a gallon currently, and that goes into not 
the Harbor Maintenance Trust Fund, but it goes into the Inland 
Waterways Trust Fund, and those dollars are supposed to be used 
to build new projects on the inland waterways. For years we saw 
a surplus in that trust fund as well, and that concerned the 
industry. Even though it was not as large of a surplus as the 
Harbor Maintenance Trust Fund, it was still big dollars to us. 
We saw about $400 million of surplus build up in our trust fund 
for several years.
    Mr. Brown of South Carolina. Why would it just be 
restricted to new construction? Why wouldn't it be used for 
maintenance of the dredging of the Intracoastal Waterway?
    Mr. Little. Well, the Inland Waterways Trust Fund was set 
up by Congress to address the inland waterways only, and the 
fuel tax collected from the users of the inland waterways went 
into the trust fund, still continue to go into the trust fund, 
for those inland waterways which we consume fuel on. So it was 
dedicated to the inland waterways.
    Mr. Brown of South Carolina. I understand. But why would it 
just be construction, and why not be able to used for 
maintenance of the Intracoastal Waterway?
    Mr. Little. Well, that is the way Congress prescribed the 
program at the time, so that we could rehabilitate and add to 
the structures we have out there.
    Mr. Brown of South Carolina. Well, maybe we ought to go 
back and amend it, what you recommend.
    Mr. Oberstar. Would the gentleman yield?
    Mr. Brown of South Carolina. Yes, sir.
    Mr. Oberstar. Thank you.
    Madam Chair, I ask unanimous consent the gentleman's time 
be extended.
    Mr. Brown has touched on a very critical issue in the 
valuation by the Corps of Engineers of waterway projects in 
saying the Corps has made a determination that your port 
doesn't have the cargo to justify deepening of the harbor, 
maintenance dredging or improvement to new depth.
    Mr. Brown of South Carolina. Yes, sir. Well, not the new 
depth, but just the current--the one port does, Mr. Chairman, I 
am sorry.
    Mr. Oberstar. Or even the current. Yes, but it is both. It 
is both that the Corps has a problem with. This is a 
fundamental issue that we have had to deal with for many years, 
and not only in recent times, but going back to 1848, when 
President James K. Polk proposed a fee for the development of 
canals, that a fee would be imposed on goods, and the fee 
collected and the canals dredged and dug.
    And a first term Member of Congress rose in the House to 
object to that fee, saying that we must first build the canal 
so that the cargo can be in it for a while and generate the 
revenue from which a toll can then be extracted. That Member of 
Congress was Abraham Lincoln, and his speech--rarely does a 
speech change votes, but his speech changed the whole course of 
canal development and construction, and the Congress refused to 
proceed on President Polk's toll proposal and affirmed the 
principle of the free waterways going back to the Northwest 
Ordinance of 1787. And that continues to be a vexatious issue 
for us.
    On the one hand, the Corps is directed by Office of 
Management and Budget. And this goes back over several 
administrations; Democrat, Republican, makes no difference. The 
same people over at OMB put on their green eyeshade and they 
treat things just as if presidents didn't exist and congresses 
are an afterthought, and they insist on showing that the 
cargo--well, you can't get the cargo if you don't develop the 
port and the capability. And we need, as the gentleman has 
said, more clarity on this issue, and that is going to be the 
purpose of our deliberations in the future.
    I thank the gentleman.
    Mr. Brown of South Carolina. Thank you, Mr. Chairman.
    Ms. Johnson. Thank you very much.
    Mr. Baird.
    Mr. Baird. I thank the Chair and I thank our witnesses. I 
want to start by noting the numbers of projects. I think, Mr. 
Holliday, you particularly talked about the things that had 
been done under the stimulus bill. The reason I raise that is 
twofold: one, it is not uncommon for certain pundits, and even 
Members of this body, to suggest that no jobs were created. Do 
you have an estimate, or does anyone on the panel have an 
estimate, of the numbers of jobs that were in fact created by 
stimulus spending within your industries? Created or preserved.
    Mr. Holliday. I will address from the dredging perspective. 
We added additional dredges. In my written testimony I have a 
list of those. It would certainly have to be accrued. But more 
importantly--and I think this is may be one of the shortcomings 
of the accounting of the whole stimulus process--when you 
dredge a port, you create a tremendous amount of jobs on the 
docks, on the support facilities in that port. So the 
multiplier of that action is significant. And I think 
Congressman Brown alluded to the kind of economic engine that a 
port generates. Clearly, there were a lot more jobs than maybe 
the numbers really allude to.
    Mr. Baird. That is an excellent point.
    The other point I wanted to make is if the only metric we 
look at in terms of the benefit of the stimulus bill is jobs 
created, we forget that you actually did some work, that we 
actually have tangible results, things that needed to be done 
at some point. We have a huge infrastructure deficit, and by 
spending money on infrastructure, which the Chairman, Chairman 
Oberstar championed so vigorously in the stimulus bill, we not 
only put people to work; we accomplished tasks and created 
tangible good that will last for a very, very long time. And I 
want to get that on the record because I am actually pretty 
tired of hearing people say that the stimulus didn't create 
jobs, when it in fact clearly did create jobs; and, secondly, 
it created tangible infrastructure benefit
    I want to return to Mr. Little for a second. There was no 
discourtesy at all reflected in my comments that we have a 
process of how lengthy things can be before they are entered 
into the record. The fact is I think your report, from my 
knowledge of it, from the American Waterway Operators, is an 
outstanding piece of work. You have a long-termed time frame, 
you have a reasonable expenditure, a clear public benefit, and 
a mechanism to pay for it. It is actually, I think, a model, 
and I would hope we could actually use it.
    And I want to give you a chance to elaborate a little bit 
on that, Mr. Little, but I want to also invite you, if you 
choose, to mention briefly something that is not before the 
Committee today, but it has to do with the matter of 
regulations concerning deck runoff from your vessels and some 
pending time frames that might create a problem that we need to 
address here.
    So let me open that on both fronts for you.
    Mr. Little. Well, thank you very much, Congressman. No 
offense was taken at all. I fully understand and appreciate 
that, and I appreciate the fact that you have looked at the 
report and you are familiar with it. We are very proud of that. 
As I mentioned in my statement, I am Chairman of the Inland 
Waterways Users Board, a Federal advisory board that Congress 
created to look at issues like this.
    I have personally spent a lot of time, in addition to 
trying to run my company, in working on this report for the 
past year and a half, and we are very proud of the work that 
has been done. The Users Board approved that report two days 
ago, as I mentioned. It outlines a plan for the next 20 years 
and how we get there with the funding.
    I will refer to one page of my testimony just to try to 
respond to your question, and that is on page 10. I have 
included a chart which shows where we think we will be if we 
continue to do business the way we are doing it now, and that 
is projects will not be completed in an expeditious way. We 
think that with the plan that we have proposed we will see a 
significant improvement in the way that projects are completed 
because we will finish what we have started and then move on to 
the next project, finish it, move on to the next one. 
Unfortunately, we are spreading money around too thinly and we 
are not finishing projects the way we should.
    Mr. Baird. Does the plan add to our deficit at all?
    Mr. Little. We actually think--and this is also pointed out 
on the same page--that we will save the Government money 
because we will be performing, under this program, more 
efficiently as a Nation than we currently are.
    Mr. Baird. And it is paid for by the user fees.
    Mr. Little. That is right. It is paid in part by users fee 
and part by the Federal Government, the way it is now, with 
some adjustment in the cost sharing. But still it is user paid; 
users will be paying a part of it. And, in fact, there will be 
a fuel tax increase that the industry would be paying of about 
6 cents to 9 cents a gallon. We recommend that fuel tax 
increase only as long as we get all of these other fixes.
    Mr. Baird. A fair point. And I commend you for it.
    Madam Chair and Chairman Oberstar, I hope we will look very 
seriously at this report; I think it is a fine piece of work. I 
don't think my time allows to deal with this runoff issue of 
the vessels, but it is of major importance. Can the gentleman 
have maybe 10 seconds to talk about that?
    Mr. Little. Well, and I won't need that much because I have 
spent so much time on this issue that I am not----
    Mr. Baird. Okay.
    Mr. Little. But I would be glad to provide that for the 
record, a written response.
    Mr. Baird. I would welcome that. Thank you.
    [The referenced information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Baird. Thank you, Madam Chair.
    Ms. Johnson. Thank you very much.
    Mr. Duncan.
    Mr. Duncan. Thank you very much, Madam Chairwoman. And 
certainly always appreciate Chairman Oberstar's history. I 
always learn a lot not only of history, but also the current 
situation of things we are dealing with in this Committee from 
him.
    Mr. Brown, I have to ask you about the Chickamauga Lock. 
That lock is in Congressman Wamp's district, but it is very, 
very important to my district and, indeed, to the entire 
southeast. Construction work on that lock has the best cost 
benefit analysis ratio of any of these locks that are budgeted 
for construction.
    Also, by the Corps' own estimates, because that is one of 
the fastest growing areas in the Country, the estimates of the 
tonnage that is expected to come through, the growth in that 
expected tonnage is just tremendous. Yet, there is zero 
budgeted for construction for that lock, either from the 
Treasury or from the Inland Waterways Trust Fund, and I have to 
ask you about that.
    It also has national security implications, because not too 
far above that lock is a major nuclear plant. There are 
concerns that if work isn't done on that--we have spent a 
tremendous amount of money over the last few years getting that 
lock ready for construction, the necessary construction that 
has been talked about or planned years, and there is concern 
that the TVA safety officials may have to close down the river 
if that construction work is not done in the very near future. 
Then you have all the Oak Ridge operations not too far from 
where that lock is.
    So what is your report on that and why are we not having 
any money budgeted for construction on the Chickamauga Lock?
    Mr. Brown. Congressman, in my former life I was the Chief 
of Planning and Policy in the Lakes and Rivers Division, so I 
was very familiar with Chickamauga Lock and all the details. 
Matter of fact, came up here to defend it when we had to report 
in on it.
    Unfortunately, right now, I don't know all the latest, and 
what I would be happy to do is get you--submit for the record 
kind of a detailed lay-down in terms of the status of the 
Chickamauga Lock with respect to the funding.
    Mr. Duncan. Well, I have always supported the work of the 
Army Corps and the work that is being done on these various 
water projects around the Country, but I really don't know if 
you could find one that affects more people, more money, and 
that is more behind schedule or more necessary at this time 
than the Chickamauga Lock. Like I said, it is not in my 
district, but it is very close, and it is important to my 
district and it is important to that entire region. I think you 
would agree with that, wouldn't you?
    Mr. Brown. Yes, it is a very important construction and it 
has some significant issues with alkali-aggregate concrete, 
growing concrete; it is a reaction that is occurring.
    Mr. Duncan. Well, I hope you will go back and talk to some 
of the higher-ups there in the Army Corps and have a discussion 
about this, because we need to move on that.
    Thank you very much, Madam Chairwoman.
    Ms. Johnson. Thank you very much.
    Mr. Hare.
    Mr. Hare. Thank you, Madam Chair.
    Mr. Brown, thank you for coming today and for testifying 
and for your service. I appreciate your being here. Last 
November, this Subcommittee heard a bipartisan panel of Members 
of Congress on what their thoughts of the 2010 WRDA bill ought 
to look like, and I just wonder if you have had a chance to 
review that and, if you have, are there any particular aspects 
of their testimony that the Corps would really like the 
Subcommittee to consider that currently is not currently in 
law.
    Mr. Brown. I am somewhat familiar with that. I guess what I 
would say, Congressman, is that currently the Administration 
is--that WRDA proposal is under consideration. Obviously, the 
details of that would be subject to any Administration 
decisions. I can't speak on the particulars at this point in 
time, though.
    Mr. Hare. I appreciate that. Well, I have the rare distinct 
privilege of having seven locks in my congressional district 
and have worked with the Corps, and the Chairman as well, and 
he has been incredibly good to work with me on this. But I 
encompass two Corps districts, Rock Island and St. Louis, and I 
have been supportive of the actions by both the districts and 
have been briefed on the projects that the Corps wants to 
complete.
    But I am not sure I agree with the funding distribution for 
Corps projects and the shifting of necessary fundings for my 
two districts. It seems that the projects that are going to be 
completed, the money got shifted from the Rock Island district 
down into the Louisiana area, which I understand that, but 
funding is always an issue when we have to appropriate money. 
But in my district the annual funding appears to simply 
maintain the operations and not really take on new ones.
    So I realize this isn't an oversight hearing, and I am not 
trying to nail you here, but I thought I would ask you if you 
could provide an update of what the Corps is doing regarding 
the new initiatives and existing priorities in the Rock Island 
and St. Louis districts. And, by the way, I have to tell you I 
am a strong supporter of the Corps of Engineers; they do 
wonderful work. And I know they need more money to do more 
wonderful work, but I am trying to figure out what the shifting 
of the resources, what affect that has or if you know what the 
status of that is.
    Mr. Brown. I would be more than happy to provide you the 
details for the record.
    Mr. Hare. Thank you.
    Mr. Fitzgerald, if I could, on the last page of your 
written testimony you called for a more improved planning 
process for the Corps, and I understand the need to ensure a 
thorough planning process when the Corps plans for flood 
reductions. Do you have any particular thoughts on how Congress 
could streamline the process in the next WRDA bill without 
losing the quality of work being done?
    Mr. Fitzgerald. Yes. NAFSMA and our members, we have been 
studying that along with the Corps in the last couple year, 
primarily working with them on the update of the principles and 
guidelines, kind of a parallel process, and we have 
identified--we wanted to identify the areas that needed to have 
attention first. What is the real problem, not what are the 
symptoms.
    And we kind of isolated those to four areas--this is the 
NAFSMA group--the process itself, the people that are involved 
in making it work, and then the guidance. There has been a lot 
of guidance written over the years and a lot of new laws put 
in, and it has gotten pretty voluminous. And then finally 
funding, of course, the bottom line for all projects.
    We haven't come up with things specifically for WRDA 2010, 
but I think what we are trying to look at is coming up with 
something that is simpler and more direct. What we have now has 
been accumulated over the years, for many, many, many years, 
and it is our opinion to step back and try to simplify. So I 
can see the opportunity for some authorization to help with 
that simplification.
    Also, one of the ideas we initially talked about is trying 
to reduce the number of projects that go through the long 
planning process. If there is a way to evaluate them earlier 
and say is there a Federal interest or not earlier, and not 
have to go through the long several year process to do that, 
but do it on a fair basis and for everyone concerned.
    Mr. Hare. Thank you. Just lastly, a few times in your 
testimony you mentioned how your national association works 
closely with the Corps and with FEMA. In my district, there has 
been, at times, a lack of efficient coordination between the 
two bodies regarding flood activities. From a national 
association standpoint, do you have any suggestions on how the 
next WRDA bill can better guide the working relationship 
between FEMA and the Corps?
    Mr. Fitzgerald. I can't think of anything specifically off 
the top of my head. I think there has been an effort with 
NAFSMA and ASFPM to work with the Corps and FEMA together at 
the very high senior level, and those have been productive, and 
trying to find where that can be improved. I am not, right now, 
familiar with anything specifically that would have to do with 
authorization to help that.
    Mr. Hare. Thank you very much.
    Thank you, Madam Chair.
    Ms. Johnson. Thank you very much.
    The Chair now recognizes the Ranking Member, Mr. Boozman.
    Mr. Boozman. Thank you, Madam Chair.
    Mr. Brown, what is the current backlog of unconstructed, 
yet authorized, Army Corps of Engineers projects?
    Mr. Brown. The total construction backlog for fiscal year 
2011 for active projects is $59.6 billion, sir.
    Mr. Boozman. How long would it take to complete the backlog 
if no new projects were authorized?
    Mr. Brown. I guess it would really be dependent upon the 
function of the funding levels on an annual basis. I don't know 
if I could give you a specific answer, but it would be 
dependent upon the funding levels on the annual appropriation 
bill.
    Mr. Boozman. Okay. So will you do that for us, will you 
answer the question based on the average funding that has been 
available in the past years?
    Mr. Brown. Sure.
    Mr. Boozman. Of the 46 Chiefs reports authorized in WRDA 
2007, how many of those projects have received construction 
funding? Not preconstruction engineering and design; how many 
have initiated construction? Of those initiated, how soon after 
the enactment of WRDA 2007 were they begun?
    Mr. Brown. I am familiar that four of them have received 
construction funding or under construction. I have to get you 
the rest of the details in terms of the sequence of when they 
were funded. I can do that, though, provide that for the 
record.
    [The referenced information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Boozman. Mr. Little, some have suggested--and, again, 
in light of that testimony, some have suggested that the 
Congressional appropriations process is focused too much on 
project construction, as opposed to project completion. In 
addition--and this is kind of a separate thing--some also have 
suggested we should treat the inland navigation system as a 
program, and not merely as a series of projects. Can you 
comment on those things?
    Mr. Little. Well, that is what the Users Board has tackled 
during the past year and a half, to try to look at the inland 
waterways system as a system and as an entire program, and that 
is why we developed the report we did and approved just two 
days ago. It is critical to the well-being of the Nation that 
we continue to move products efficiently through these locks 
and dams.
    We have seen several projects continue at a snail's pace in 
the construction, and what we have done is tried to prioritize 
the work that is ongoing to make sure we can finish some of 
these projects. So that strikes at the heart of what we have 
been looking at for the last year and a half, yes, sir.
    Mr. Boozman. So you would agree, then,that you have 
concerns with project construction, as opposed to completion?
    Mr. Little. We need projects to be completed, and that is 
what we have been focused on, is trying to come up with a plan, 
and I think we have come up with a very strong plan to finish 
some of these projects. And when we do that, that allows the 
other projects to move up the line and, in time, and in a 
shorter period of time, they can also be completed, yes, sir.
    Mr. Boozman. Mr. Holliday, with regard to the navigation 
channels, one of the complaints that we hear in Congress is 
that that particular problem, as has already been mentioned, 
but if we enacted Mr. Boustany's legislation, is the private 
dredge fleet robust enough to ensure that, if adequate funds 
became available, there would be enough capacity to issue the 
contracts and complete the work in a timely manner?
    Mr. Holliday. Yes, sir. As we demonstrated in response to 
the ARRA stimulus, our industry, working closely with the Corps 
of Engineers, was able to identify what the requirements were, 
what the resource needs were, and, quite frankly, stepped up to 
that plate, and we could do that again. The critical part of 
that is a tremendous organization within the Corps that 
recognizes that there has to be that constant dialogue and 
communication, and the Corps operations folks have done a great 
job with that.
    Mr. Boozman. Thank you, Madam Chair.
    Ms. Johnson. Thank you very much.
    Ms. Edwards. Thank you, Madam Chairwoman, and thank you to 
all of our witnesses today.
    I think it is really important for the Corps to look at 
nonstructural kinds of alternatives like green infrastructure, 
in addition to the big structural projects that we have, to 
best use the available climate science that is somewhat new to 
us and incorporate those ideas into project planning.
    In December, I introduced H.R. 4202, the Green 
Infrastructure and Clean Water Act of 2009, to give incentives 
for green infrastructure and establish five centers of 
excellence for these kinds of techniques, because I do believe 
that it is time for us to look at both new ways of thinking 
about water management, but also marrying those with 
traditional techniques; and I think that these things are 
compatible both for industry and for environmental protections.
    Mr. Brown, I note with the Army Corps there are a long list 
of projects that are proposed for WRDA, and they are all under 
the current principles and guidelines, which focus a lot on 
economic development as a major goal for water resources 
management. But in the last WRDA, Congress instructed the Corps 
to revise the principles and guidelines to include protection 
and restoration of natural systems, and avoid the unwise use of 
floodplains as a national objective.
    The rewriting process is currently being undertaken by the 
Administration, but I wonder, since you described the backlog 
of projects that have been done under the current principles, 
we know that those guidelines are going to be changed, and I 
wonder how the new principles will be reflected in the existing 
projects and planning processes. And as to the projects that 
are here presented today, I am curious as to whether you have 
begun to incorporate some of those things that we know are 
going to come down the pike in your own planning process.
    So, Mr. Brown, I wonder if you could tell me how the Corps 
is planning to ensure that the projects under WRDA reflect the 
new national priorities and don't really work at cross-purposes 
to what will be the new priorities.
    Mr. Brown. As a general rule, Congresswoman, the existing 
projects that are under formulation would not necessarily be 
subject to the existing principles and guidelines. Remember, 
the Administration hasn't completed the analysis. The National 
Academy of Sciences is continuing to look at that and won't be 
done with their review until November of this year. Then there 
will be a subsequent review of the input from the National 
Academy of Sciences before they finalize the new P&G.
    Just as an example, Mississippi Coastal--you talked about 
nonstructural. The Mississippi Coastal Improvement Program does 
factor in nonstructural alternatives and looks at some things. 
So there are other places that we have looked at nonstructural 
and we have incorporated nonstructural projects as a part of 
our existing planning process, but Mississippi Coastal is one 
right now where we have implemented nonstructural and 
structural measures to provide solutions.
    Ms. Edwards. Mr. Fitzgerald, you hinted at this in part of 
your testimony as well, so I wonder if you have some thoughts 
about that, because I get worried that we are going to have to 
clear up, at some point or other, these projects are going to 
come online, but they are sitting kind of on a backlog, so it 
is not like they are coming any time soon. We will get to 
November and who knows for how long we will be operating under 
those old principles.
    Mr. Fitzgerald. Yes. We, as local sponsors, believe that 
the nonstructural needs to be looked at equally to the 
structural. We think that a balanced look between economics and 
environment is very, very important, and many of our members 
have done quite a few nonstructural projects. Even in the same 
community, like in Harris County, we look at that and there are 
some areas where we do nonstructural. That is the best answer. 
But not too far down the road a structural approach is the one 
that is selected.
    People think the new principles and guidelines is going to 
be a lot different than the older one, but even in the older 
one or the one that is in existence now, nonstructural was 
required to be looked at. I think what the new principles and 
guidelines is doing is just emphasizing that, as well as 
looking at the environmental aspects of projects in a little 
bit more detail.
    Ms. Edwards. Thank you very much.
    With that, I yield.
    Ms. Johnson. Thank you very much.
    Mr. Cao.
    Mr. Cao. Thank you very much, Madam Chair.
    My first question is directed to Mr. Theodore Brown or 
anyone who might have an answer to the question, and the first 
question concerns the excessive delays exhibited by the Army 
Corps of Engineers to deepen and maintain a portion of the 
Mississippi River channel adjacent to the Napoleon Avenue 
container terminal at the Port of New Orleans. And my question 
is what are the Corps' plans to complete the small navigation 
project study and commence the required maintenance dredging 
near the terminal?
    Mr. Brown. Congressman, just for clarification, which 
project was this again?
    Mr. Cao. There is a portion of the Mississippi River 
channel adjacent to the Napoleon Avenue container terminal that 
needs deepening. The small navigation project, or at least the 
project to deepen this portion of the river was authorized 
under the 2007 WRDA bill, and it has been two years since the 
project was authorized and the dredging has not been done to 
deepen the channel. So I am just wondering what plans does the 
Corps have to deepen that portion of the river.
    Mr. Brown. I will be happy to get back with you. I mean, 
obviously, anything is subject to appropriations prior to--it 
will require authorization and appropriations, but I will 
provide a detailed answer back to you for the record.
    Mr. Cao. And I would like to ask a question concerning the 
Inner Harbor Navigation Canal Lock, which was built in 1921 in 
New Orleans, and the lock is well beyond its design life and 
needs to be replaced in order to accommodate the high level of 
maritime traffic in the area of the Port of New Orleans.
    The replacement of the Inner Harbor Canal Lock was 
authorized by Congress in the Rivers and Harbors Act of 1956 
and reauthorized in 1986 and 1996. Congress has appropriated 
approximately $100 million to date for this project, but major 
construction has not yet commenced. My question is what efforts 
are being taken by the Corps to ensure the timely execution and 
completion of this extremely important water project in the 2nd 
District.
    Mr. Brown. I believe this is the one, Congressman, that is 
right now under litigation?
    Mr. Cao. I believe that the litigation has completed. The 
judge cleared the Army Corps the way to start the construction 
of the canal lock.
    Mr. Brown. I would be happy to provide a detailed answer 
for the record. I thought this is the one that is still subject 
to litigation from the environmental impact statement.
    Mr. Cao. My next question I am not sure who I would direct 
it to, but it deals with Asian carp. Now, I guess the States of 
Illinois or Michigan, they are asking for the lock to be closed 
because of the fear of Asian carp that goes into the lake, and 
potentially it could cost the waterway commerce close to $5 
billion. Now, I have a couple of recipes for Asian carp if 
anybody is interested.
    [Laughter.]
    Mr. Cao. Is there a better way for us to address this?
    Mr. Brown. I think those alternatives are underway. There 
is an efficacy study that is ongoing. There are some temporary 
measures that are also ongoing, being looked at to be 
implemented. So I think the efficacy study will address some of 
those questions, Congressman.
    Mr. Cao. Thank you very much.
    Ms. Johnson. Thank you very much.
    The distinguished Chairman of the full Committee, Mr. 
Oberstar.
    Mr. Oberstar. Thank you, Madam Chair. Thank you for this 
hearing, this review of Corps programs and policies, and 
getting this very distinguished panel together, and thank you 
for risking your voice to undertake this hearing.
    Chairwoman Johnson has been through a very long ordeal with 
the most precious commodity that we Members of Congress have, 
our voice. Her voice is very strong, but the decibels have been 
reduced because she has been through a long rehabilitation, and 
we are glad to have her here and glad to have her out of that 
collar that was necessary. Thank you for your perseverance 
here. You are a treasure for our Committee and for the work of 
the Corps of Engineers.
    Now, I want to follow up on a few things. Mr. Boozman very 
properly, very pointedly inquired, Mr. Brown, of the 
construction backlog of the Corps and the ongoing program, and 
that $59 billion construction need, and the list that he 
requested of you. I want to be sure that you also submit for 
the Committee where the funding has gone by Corps district over 
the last five years.
    Mr. Brown. Certainly, Mr. Chair.
    Mr. Oberstar. I think it is going to show that there is 
quite a disparity in the allocation of funding from district to 
district, and that there is a very substantial allocation to at 
least one district for a variety of reasons. But I want the 
facts out and I want them in that document you submit.
    Mr. Brown. Mr. Chair, just for clarification, so I have it 
right.
    Mr. Oberstar. Yes.
    Mr. Brown. You are looking at appropriations over the last 
five years by district?
    Mr. Oberstar. Yes. The investments that the Corps has made. 
Not the authorization, but the investments actually made under 
the appropriations provided over the last five years.
    Mr. Brown. Okay.
    [The referenced information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Oberstar. That Corps budget has averaged under $4.8 
billion a year, and in the Recovery Act the Congress allocated 
$4.6 billion, one whole year in addition, which was more than 
the previous year funding, for projects to be completed within 
the spirit of the Recovery Act. Now, here we have the $5.1 
billion held up in the Harbor Maintenance Trust Fund and about 
$1.1 billion, $1.3 billion collected annually, and it is not 
being invested. That is intolerable.
    I just discussed with Mr. Boozman the disadvantage Midwest 
soybean, corn, other grain farmers--just to take those 
commodities--have compared to Brazil. If you look at a map of 
South America, that point of Brazil that sticks out in the 
South Atlantic Ocean, right at that point is the Port of 
Recife. Under the direction of Mr. Shuster, Mr. Duncan led a 
delegation, which I participated, inquiry into port activities 
and competition from Central and South America.
    So we went to Recife and the Port of Santos is the point of 
export for the soybeans and other agricultural commodities that 
Brazil exports to the same West and East African port ranges, 
and to the Asia Pacific Rim ports to which we ship our 
commodities.
    They have a 2,500 mile advantage. They have at least a four 
day sailing advantage over the Port of New Orleans. And we 
have, on top of that, a three week disadvantage in moving those 
goods.
    Now, agricultural commodities move in international markets 
on as little as an eighth of a cent a bushel. If we are adding 
a transportation cost in delay and delivery, we are 
noncompetitive in the world marketplace. We have to make those 
investments in the expansion of the locks on the Mississippi 
and Illinois Rivers authorized in the WRDA 2007.
    There is only one lock of 1,200 feet; that is Lock and Dam 
26, north of the confluence of the Missouri and Mississippi 
Rivers. That was authorized in 1978 and construction was 
completed in 1994. We waited for years to authorize the 
construction of the 7 additional 1,200 foot lock structures on 
the Mississippi and Illinois rivers; finally we got all those 
authorizations together, put them in the WRDA 2007. We had to 
override a veto in order to do that. This was a bipartisan 
initiative. Congress together said we have waited seven years; 
we haven't done these things, we haven't made the investments. 
And now they are still not being done. Why? Because those costs 
have escalated.
    I see Mr. Doyle sitting in the audience, John Doyle, my 
successor as Committee administrator, later the Assistant 
Secretary for the Corps, and he is nodding in concurrence. Let 
it be known for the record. He knows.
    [Laughter.]
    Mr. Oberstar. Excuse me for my frustration and my 
enthusiasm for this subject, but this just drives me crazy that 
we don't make these investments which are in--they are not just 
for the waterways, not just for the barge tow operators, not 
just for the ports; it is for all the farmers, all the farm 
communities that are served by the whole watershed of the 
Mississippi River. It is our international competitiveness.
    You improve those locks; America does better in the world 
marketplace. We can't sit back and just twiddle our thumbs and 
say, oh, well, it is big cost, we have a budget deficit. 
Baloney. If you don't export, you don't compete, you don't have 
the duties; you don't have the duties, we are not competitive 
in our domestic economy, we are not creating jobs, and we are 
not competing in the international marketplace. That is what 
this is all about. Let's get our focus fixed right.
    Every one of those Chairman portraits on the wall there has 
been an advocate for investment in the works of the Corps of 
Engineers and in our inland waterways and our saltwater and 
freshwater ports. We have to continue doing that.
    So we are going to proceed with the Water Resources 
Development Act of 2010, but I have to observe that I am 
troubled by an unfortunate decision made by our friends across 
the aisle on Corps projects. At the outset of the 110th 
Congress, I got together with Mr. Mica, the Ranking Member of 
the full Committee, and Mr. Boozman. We worked out a new 
approach for designation of projects in which Members would 
sign a statement verifying, stating clearly they have no 
personal or family financial interest in the project which they 
are sponsoring. Second, we put those projects on the internet. 
Third, we included those statements in the Committee report on 
the bill and submitted it during Floor consideration for the 
Congressional Record.
    So in the interest of transparency and accountability, we 
charted a whole new chapter for a project authorization in WRDA 
2007. It was novel. While there were other changes made in 
House rules, we were way ahead of the curve. So every project 
was accompanied by that certification, that neither the Member 
nor his or her spouse had a personal or family financial 
interest in the project. We included that also in the 
conference report on the bill, and it is now part of the public 
law history.
    Now, that transparency and accountability principle 
continues to be the Committee's policy as we proceed with the 
WRDA 2010. We have received over 2,000 individual requests from 
both Republican and Democratic Members for projects to be 
included in the upcoming bill. All projects in WRDA 2010 will 
be accompanied by a signed no financial interest certification 
from the Member who requests the proposed project. The 
Committee report will list all sponsors of project 
authorizations and, as in the past, the certifications will be 
made publicly available prior to consideration of the bill in 
the House.
    Now, I know that that decision by the House Republican 
Conference has created a problem. I have discussed this with 
Mr. Mica; I have discussed it with many individual Members on 
the Republican side who are torn by the policy of their 
conference and the needs of their district. One hundred twenty 
Republican Members submitted project requests for WRDA 2010. So 
far, I have received a handful of letters transmitted from Mr. 
Mica, as directed by the Republican conference, to me from 
Republican Members requesting that their project proposals be 
withdrawn.
    Now, in each case where a Member requests his or her 
project to be withdrawn, I regret we will not be able to 
consider the project for inclusion in WRDA 2010. We are not 
just going to give a blank check.
    Now, I also understand, one by one, sort of like Nicodemus 
in the night, Republican Members coming to say, look, I don't 
intend to comply with the directive because of the importance 
of these projects to my district, including flood control, 
navigation, environmental restoration projects.
    Never in the history--I want to make it very clear. Never 
in the history of the House have Corps authorizations been 
considered earmarks. That is a unique term applied to the 
appropriation process. From the very first Congress works of 
the Corps of Engineers have been designated individually and 
specifically by the House of Representatives and the United 
States Senate.
    That is the process. From authorization for the Corps to do 
a survey, called a survey resolution, to evaluate the needs, 
report back, recommending for or against a project. If it is 
for, then we authorize the feasibility study. When that is 
completed, then we authorize justified projects for 
construction. And the whole process is governed by a benefit 
cost analysis, all transparent, open to the public.
    That is the way the Congress and this Committee have 
conducted this business from the very first Congress in 1789. 
We have never, Congress has never authorized a blank check to 
the Corps of Engineers to invest where they choose. It is not 
like giving funding to the Department of Education or Health 
and Human Services and said, well, go ahead and use this 
funding as you think best. The works of the Corps are unique; 
they are project by project, harbor by harbor, lock by lock, 
levee by levee, dam by dam, recreation lake by recreation lake. 
Every one of these is done specifically in a clear, open, 
transparent process in Committee and on the record.
    So I think it is unfortunate that while there have been 
problems in the appropriation process, the work of this 
Committee, under Democratic and Republican leadership for 225 
years, has been above-board and open and transparent, and we 
are going to continue that process. And I welcome Members who 
submit projects and sign the certification. Their projects will 
be included. And those that don't, I will respect the process 
chosen by the Republican party and we will just take it from 
there.
    Thank you, Madam Chair.
    Ms. Johnson. Thank you, Mr. Chairman.
    Mr. Olson.
    Mr. Olson. Thank you, Madam Chairwoman.
    Welcome to all the witnesses. Thanks for coming here today. 
We greatly appreciate it.
    Good to see you again, Mr. Fitzgerald. And I am sure it is 
good to be out of Houston with the way our Astros have started 
their baseball season.
    [Laughter.]
    Mr. Olson. The only team in the major leagues who have not 
won a game, if anybody is concerned about that.
    Mr. Fitzgerald, I direct one question towards you 
concerning Section 214 of the 2000 WRDA, which, as you know, 
allows the Secretary of the Army to accept and expend funds 
contributed by non-Federal public entities to expedite the 
processing of permits through the Army Corps of Engineers.
    Many benefits to this. By funding additional staff work on 
permit evaluation, existing Corps staff are able to process 
significant backlogs more quickly. Hiring additional staff 
results in a reduction of permit waiting times not only for the 
local funding entity, but also for any individual organization 
that makes an application within that Corps district.
    I just want to get your take on how valuable Section 214 
has been to your organization and how valuable would it be to 
making that permit, so you don't have to go through this 
process and concern of it being reauthorized every year or so.
    Mr. Fitzgerald. Yes. We recently have funded a position at 
the Galveston district and we immediately saw some benefits to 
our organization with the backlog of permits and jurisdictional 
determinations. It has really helped a lot. But we also get 
word back from the local Corps district that it is really 
helping other projects as well. Like we said, it doesn't help 
just the funding entity.
    And there are several other local entities in the northwest 
part of the United States, in particular, that are taking 
advantage of this same opportunity, and making it permanent 
would kind of keep us from being on edge about whether it would 
be extended each year. But there is value to this in all the 
things that Mr. Oberstar was talking about, in getting things 
done and getting this position in the Corps district offices.
    Mr. Olson. Thank you very much. That is what we are here 
for, getting things done.
    Any other members of the panel like to comment on Section 
214?
    [No audible response.]
    Mr. Olson. Going, going, gone. Thank you very much for your 
time.
    I yield back my time, Madam Chairwoman.
    Ms. Johnson. Thank you very much.
    Mr. Garamendi.
    Mr. Garamendi. Thank you very much, Madam Chair.
    My question goes to the Corps of Engineers. We have had a 
lot of discussion on things that are east of the Mississippi. 
Let's focus a little bit on things that are west of the 
Mississippi, specifically, the California area, the Sacramento-
San Joaquin Delta, a rather important part of the largest 
population in this Nation. It is where the water for 25 million 
people flow; it is where it is really the incubator for much of 
the Pacific coast fisheries; and it is in deep trouble.
    I don't think we are going to have time to get into all of 
this, but a brief comment, if you would, on the Corps' general 
attitude about the Delta, the Sacramento-San Joaquin Delta, 
what you are doing; and then I have some specific things I 
would like you to prepare and to deliver.
    Mr. Brown. Certainly. We have a substantial effort that is 
ongoing in that part of the world, in California and the Bay 
Delta, not only on the environmental side, but as well as the 
flood risk management side. We have scheduled a potential 
report before the end of the calendar year that is a general 
reevaluation report on Natomas that would be looked at for 
reauthorization.
    Mr. Garamendi. I appreciate the brevity of it because that 
pretty much states the brevity and the lack of enthusiasm by 
the Corps in dealing with it. I had a conversation with the 
regional operation out there and found, to my surprise, that 
there was almost nothing going on; very few projects and very, 
very limited. Perhaps that was my own inability, after 35 years 
of understanding what the Corps was up to, but it seemed to me 
to be woefully inadequate given the challenge that the State 
faces, and the citizens of the State and the environment of the 
State face.
    Specifically, I would like you to deliver, at the earliest 
possible moment, a comprehensive review of all of the Corps of 
Engineers' projects in the Delta that are currently underway; 
those that are planned in the immediate future, that is, within 
the next one to three years. These projects should include the 
water issues as they relate to the programs that are currently 
being discussed in California; flood issues in the Delta, levee 
protection and the like; environmental issues, restoration of 
the environment in the area; and the funding associated with 
each of those three. If there is no funding, so state. If there 
is a program that is envisioned but not funded, I need to know.
    We had a discussion from the Chairman a moment ago about 
earmarks. Let it be known that I am a full and strong believer 
in earmarks for this part of the State because this is the most 
critical part of California's water future, and if we don't 
provide the funding for the Corps and the other Federal 
agencies that are involved, it is going to be really bad.
    Can you do that for me?
    Mr. Brown. Yes, sir.
    [The referenced information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Garamendi. Thank you. Secondly, I live in the Delta, I 
live on the Sacramento River, and I have watched with 
amazement, two years ago, a major effort to provide some 
enhancement of the levees on the Sacramento River, including a 
very significant amount of money spent on vegetation on the 
side of the levee; followed almost immediately by an edict from 
Washington, D.C. Corps offices that the levees are to be 
stripped of all vegetation.
    And it doesn't surprise me, but it sure angers me. What is 
going on here? This issue has yet to be resolved. I know that 
there are studies underway and I would like a status report on 
what the Corps' position is with regard to vegetation on the 
levees. Are you going to, one year, plant vegetation; the next 
year strip it off? If so, I guess that is a good make-work 
project, but doesn't fulfill the kinds of long-term investment 
that has been discussed here.
    So if you would provide that update on what the Corps' 
position is with regard to vegetation on the levees in the San 
Joaquin-Sacramento Delta or the entire Central Valley.
    Mr. Brown. I will do so.
    Mr. Garamendi. Finally, the issue of habitat restoration in 
the Delta is of utmost importance, and nothing will happen and 
no project will move forward without the Corps of Engineers' 
involvement in that habitat restoration. We understand the 
permitting process and the necessity for Corps of Engineers' 
involvement for in other areas. So I would like a status report 
on how the Corps of Engineers is engaged with the State of 
California's agencies recently established by law and what the 
needs may be for the Corps to fully engage. That is a little 
more than in the first that I suggested.
    And I will put all this in writing to you so that your 
notes are complete. Thank you very much.
    Mr. Brown. Thank you.
    Ms. Johnson. Thank you very much.
    There are no other requests for time. Let me thank the 
panel for being here. We appreciate your testimony, and we will 
look forward to asking you questions in the future or getting 
further information.
    The Committee is adjourned.
    [Whereupon, at 11:52 p.m., the Subcommittee was adjourned.]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
